           INSPECfOR GENERAL

                                                                          IG-V-019




           UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, D.C. 20436



May 1, 1998


MEMORANDUM

To:            Director, Office of Administration

From:          .lnspector Generrd          £//~/vr
Subject:       Inspection Report No 02-98, Review of Commission Policies for Marking
               Controlled Data

We initiated this inspection in February 1998 to review Commission policies for marking
controlled data. In general, we found that Commission policies and practices for marking
controlled data were inconsistent. While the inconsistency does not threaten protections for
national security or confidential business information, a clearer Commission policy will be both
beneficial and welcomed by many Commission officials.

This inspection was conducted by Robert Gellman, Privacy and Information Policy Consultant. ..
We reviewed all relevant legislation and regulations as well as internal policy directives and other
Commission publications. Except for national security information, the use of administrative
markings has received little or no attention from policy makers. We interviewed the head of each
Commission office. In addition, we consulted with officials from the Office of Information and
Regulatory Affairs, Office of Management and Budget (OMB), the Information Security Oversight
Office, and the Office of Personnel Management.


BACKGROUND

In 1978, the Chairman of the Commodity Futures trading Commission announced that he was
throwing into the Potomac River all the rubber stamps used by his agency. He said that this was
the only effective way to eliminate confidential stamps. The same year at a congressional hearing
on administrative markings, the Chairman of the Subcommittee suggested that there may be
quieter ways to achieve a balance between privacy and confidential needs and the requirements
of public availability of government documents. I This report was prepared in pursuit of those
quieter ways.

The general term used herein to describe the wording placed on documents is administrative
marking. An administrative marking is a mark, sign, stamp, or similar designation consisting of
one or more words that characterizes the nature of information in a document. Examples include
the markings that identify information classified in the interest of national defense or foreign policy
(confidential, secret. and top secret). Other examples are confidential business information (CBI),
business proprietary information (BPI), draft, and limited official use. In the past, administrative
markings were often applied by rubber stamps. Today, they might just as easily be included in
a word processing macro or template.

Except for national security markings, most administrative markings have no legal significance
or effect. No matter how an agency record is marked, it may still be the subject of a request
under the Freedom of Information Act (FOIA). Information submitted to the Commission marked
as CBI or BPI must be protected in accordance with Commission policies, but the information may
still be requested and disclosed under the FOIA. Whether any record must be disclosed or can
be withheld is determined under FOIA standards, and not by an administrative marking.

In discussing categories of non-public information, it can be difficult to use familiar words with
precision. This difficulty is both important for clarity and symptomatic of the challenge of
rationalizing the use of administrative markings. Finding a convenient general term for
information with disclosure or use restrictions is not easy. Most common terms, such as secret,
private, restricted, or sensitive, have technical, disclosure-related meanings in some contexts.

Nevertheless, it is necessary to refer generically to the class of data that is, or is believed to be,
restricted in use or disclosure. For purposes of this report, this information will be called
controlled information. This term is used here solely for discussion purposes and is not offered (
as a new marking.                                                                                      ...

The true significance of an administrative marking is not always clear from the face of a
document. Even the most highly regulated national security markings may not be accurate or
properly applied. A document marked Top Secret is only properly classified, for example, when
the designation was made by an official who has original or derivative top secret classification
authority. Other requirements must also be met. Nevertheless, those who see a document marked
top secret are likely to assume that it has been properly classified and to treat it accordingly. For
actual or potential national security information, this conservative assumption is appropriate.

For other information, a stray, casually-applied, or out-of-date marking may take on a life of its
own. Information that is not controlled information or that no longer qualifies may still be treated


   I   Information Policy Issues Relating to Contractor Data and Administrative Markings, Hearing before a
Subcommittee of the House Committee on Government Operations, 95th Congress (1978).

                                                         2
in the way that it is marked. Unmarked controlled information may receive insufficient protection.
In either case, the result may be confusion, unnecessary or inadequate security, breaches of
important public or private interests, improper treatment for record management and archival
purposes, and inconsistent administrative practices. If markings are not reliably and accurately
applied, they will lose their cachet and effect. The result can be that administrative markings fade
into the background and effectively disappear.

In the 1971 Pentagon Papers case, Mr. Justice Stewart observed that secrecy can be preserved
only when credibility is truly maintained. He also warned that:

         When everything is classified, then nothing is classified, and the system becomes
         one to be disregarded by the cynical or the careless, and to be manipulated by those
         intent on self-protection or self-promotion. 2

It is not possible, desirable, or necessary to mark every agency document that may contain
controlled information. Markings are required throughout government for national security
information, and Commission policies result in the marking of investigative documents containing
controlled information. However, a universal marking policy for all agency documents is not
common anywhere in government. The purpose of an administrative marking policy and practice
should be to further the objectives of the Commission, and afford appropriate and practical
treatment of controlled information.


LEGISLATIVE AND REGULATORY BACKGROUND

Statutes and regulations governing the Commission recognize many different categories of
controlled information. In addition, government-wide policies applicable to or followed by the
Commission identify other categories. This discussion of controlled information is not (
comprehensive, but it includes all major categories of interest to Commission operations. The list ..
in Table 1 illustrates the variety of controlled information. References are to laws in the U.S.
Code (USC), the Code of Federal Regulations (CFR), an Executive Order (EO), or Commission
Directives. Some terms are used in more than one source.

The remainder of the report is organized by category of information or marking under four broad
groups: Government-wide Controlled Information, Controlled Information Submitted to the
Commission, Personnel, and Internal Commission Markings. Some categories of information
could have been placed in more than one group. Each type of information or administrative
marking is described along with a discussion of how that information or marking is used at the
Commission.




  2   New York Times Co. v. United States, 403 U.S. 713, 729 (1971) (concurring opinion).

                                                       3
                                                                                TABLE 1

        Terms and Categories Used For Information and Administrative Markings

National Security Information: confidential, secret, or top secret - EO 12958

Classified Information - 19 USC §1677f(c)(1)(A)

Confidential Business Information - 19 USC §1332(g), 19 CFR §201.6, 19 CFR §201.19,

Business Proprietary Information - 19 USC §1673e(c)(4)(A), 19 CFR §207.7

Proprietary Information - 19 USC §1677f(b)

Privileged Information - 19 USC §1677f(c)(I)(A), 19 CFR §201.6

Confidential Commercial Information - EO 12600

Confidential Information - 19 USC §1337(n), 19 CFR §207.105(b)

Specific Information ofa Type for Which There is a Clear and Compelling Need to Withhold From
Disclosure - 19 USC §1677f(c)(1)(A)

Customer Names - 19 USC §1677f(c)(1)(A)

Nonnumerical Characterizations of Numerical CBI - 19 CFR §201.6

Nondisclosable Confidential Business Information - 19 CPR §201.6
                                                                                                .
Information Relating to Allegations Concerning the Commitment of a Prohibited Act - 19 CFR
§207.105(b)

Confidential Financial Information - 19 CFR §212.11

Limited Official Use - Directive 1345 (lnfonnation Security)

Sensitive Information - Directive 1345 (Information Security)

Report Submitted in Confidence - Directive 1355 (CBI)

Extremely Sensitive CBI - Directive 1355 (CBI)




                                              4
A. Government-Wide Controlled Injonnation

1. National Security Information

Marking documents containing national security information is required under the Executive Order
on Security Classification (EO 12958). In addition to the classification level (confidential, secret,
or top secret), other information that must be included is the identity of the classifier, the agency
of origin, declassification instructions, and reasons for classification. The portion marking policy
requires that unclassified parts of a document be identified. The Commission follows mandatory
government-wide practices for national security information.' The marking rules are not subject
to alteration by the Commission.

The term confidential is of most importance to Commission operations. Under EO 12958, the
term has an express, government-wide use meaning for low level national security information.
In a more general sense, however, confidential information includes any information that may not
be publicly disclosed, shared with other agencies, or even circulated within an agency. To the
greatest extent possible, confidential (as a single word) will only be used here only in the national
security context.

The term confidential is used routinely at the Commission in a non-national security sense in the
phrase confidential business information. This phrase is familiar and unavoidable for Commission
activities. Confidential has no national security connotation when used in this phrase.

Interviews with Commission officials revealed a high degree of awareness of the need to identify
and protect national security information.: There is evidence of occasional confusion about the use
and meaning of the term confidential because of its application to both national security
information and CBI. One official said that if a document is marked confidential, other references
are required to determine what kind of information it contains. Another official noted that staff (
needed more training to learn the distinction between confidential information and CBI. Another ..
said that the difference required lots of explanation. Another individual commented on the
"unfortunate terminological confusion." However, even where some uncertainty existed, there
was no doubt about the need to protect any information marked confidential. The ambiguity in
the use of confidential is discussed below.




   3A recent Inspector General report identified a problem with the original classification procedures for Section
332 reports. This problem has been addressed and resolved. See    Evaluation of 332 Investigations (Report no.
IG-OI-98) (Feb. 1998).

                                                         5
The Commission's directive on National Security Information' is out of date. E012356 was
replaced in April 1995 by EO 12958 on Classified National Security Information. We understand
that efforts are underway to revise Commission directives."

2. Privacy Act

The Privacy Act of 19746 defmes most personally identifiable information maintained by agencies
as controlled information. Yet Privacy Act data may still be circulated within an agency, shared
with other agencies, or even publicly disclosed at times. Simply designating a document as
containing Privacy Act information provides little direction about how it can be used or disclosed.
The law does not require marking of Privacy Act information nor is marking recommended by
OMB.

A principal source of Privacy Act information at the Commission is personnel files. The Office
of Personnel uses a standard, government-wide label on personnel files (Standard Form 66B).
The marking Privacy Act Information is rarely used at the Commission.

3. Freedom of Information Act

Under the FOIA,7 nine categories of information may be withheld from public requesters. The
FOIA does not require that an agency categorize or mark information at the time of its creation
or collection. Most agencies do not decide in advance whether a record contains information that
may be exempt from disclosure. Disclosure determinations are normally made only after receipt
of a request. This makes sense because much information is never requested and because the
disclosability of information changes over time. A document that is exempt today may have to
be disclosed tomorrow because of the passage of time or changed circumstances.

For confidential commercial information submitted to the government, EOI2600 x calls for a (
different policy. Each agency must allow a submitter of confidential commercial information to ..
designate, at the time of submission, any information the disclosure of which the submitter claims


   4   USITC Directive 1350.1 (2/20/92).

    5 Section 15.c. of ITC Directive 1350. 1advises employees that they are subject to criminal penalties in 18

USC §1905, the "Penalty for Disclosing Classified Information". In fact, 18 USC §1905 is titled Disclosure of
Confidential Information Generally. It applies to the disclosure of trade secrets, and it is one of the statutes that
an employee might violate when improperly disclosing cm or BPI. Other laws criminalize the improper
disclosure of national security information. When the directive is revised, the statutory reference should be
corrected. Section 4.c. oflTC Directive 1345 on Information Security also mislabels 18 U.S.c. 1905.

   6   5 USC §552a.

   75 USC §552.

   8   June 23, 1987,52 Fed. Reg. 23781 (1987).

                                                           6
could reasonably be expected to cause substantial competitive harm. If this marked information
is requested under the FOIA, the agency must usually provide predisclosure notice of the request
to the submitter. A submitter then has a reasonable period to object to any disclosure.

The Commission's FOIA rules partially implement the policy reflected in EO 12600. For the
moment, EO 12600 is most notable for contributing the term confidential commercial information,
a term not in use at the Commission.

The Commission's FOIA regulations') provide for predi sci0 sure notice to submitters of CBI. The
regulations differ from EO 12600 in language (confidential commercial information for the EO and
CBI for the Commission's regulation). They also differ substantively. Under the EO, a submitter
of appropriately labelled information is normally entitled to notice before disclosure. A
submitter's marking is determinative of the right to notice. Under the Commission's regulations,
a submitter receives predisclosure notice only when submitted information designated by the
Commission as cm becomes the subject of a request. The Commission's procedures call for a
submitter's marking to be accepted or rejected by the Commission at the time of submission. The
Commission then gives predisclosure notice only for information accepted and designated by the
Commission as CBI.

Because of Commission practices for CBI, the differences between the Commission's FOIA
regulations and the requirements of EO 12600 are less significant than they might appear. The
Commission's procedure for submitted CBI effectively takes the policy of EO 12600 a step
further. Because the sharing of some controlled information with parties is common feature of
Commission proceedings, an advance determination of confidentiality is essential so that all parties
allowed to see the information understand its status. This policy is unusual but clearly justified.
Other agencies rarely disclose business-originated controlled information outside the agency.

However; some gaps -- mostly theoretical -- remain between the confidentiality procedures for c
CBI and the FOIA regulations. First, not all submitted controlled information becomes part of ..
trade investigations. Some business controlled information may come through contracting or other
activities. The Commission's FOIA predisclosure notice rules apply only to CBI designated under
§201.6 of the Commission's regulations. Contractor data does not appear to qualify.

It is common for federal contractors submitting proposals with potentially proprietary information
to mark their information in order to obtain predisclosure notice under agency FOIA rules. A
contractor doing business with other agencies might expect to find a marking and notice procedure
for submissions to the Commission. A contractor who follows this practice at the Commission,
however, will not be clearly entitled to the same notice.



   ') 19 CFR §201.19. The Commission's FOIA regulations have not yet been updated to reflect the Electronic
Freedom of Information Act Amendments of 1996, Public Law No. 104-231, Act of October 2, 1996. Changes
made by the 1996 amendments are not material here. Revisions to Commission FOIA rules are in process.

                                                      7
There is    no reason the Commission's FOIA rules should not follow common agency practice in
this area   and provide contractors an opportunity for predisclosure notice in the event of a FOIA
request.     Because of the high degree of Commission concern about the improper disclosure of
business    information, every reasonable precaution should be undertaken.

Accordingly, we suggest that the FOIA regulations be amended to advise submitters of contracting
information or other administrative information that they may mark information considered to be
proprietary. The regulations should require the Commission to provide notice before any
disclosure in response to a FOIA request. The procedures and exceptions in EO 12600 can be
followed.

The Commission should use a different term used to identify submitted proprietary information.
In order to avoid the proliferation of confidential, the regulations should avoid the EO's
confidential commercial information. Submitters should be advised to mark documents notify
submitter before disclosing.

Second, the FOIA regulations incorporate the definition of CBI from §201.6. However, on July
22, 1996, the Commission amended that definition. 10 Before the amendment, there was only one
type of CBI. Now there are two. The traditional definition of CHI is now accompanied by a
second definition for nondisclosable confidential business information. The FOIA regulations do
not clearly incorporate the new definition. This is not a likely source of confusion. Nor does the
actual protection for nondisclosable CBI appear threatened as a result. The anomaly is just an
unintended result of the 1996 change. However, when the FOIA regulations are changed to
provide for predisclosure notice for contractor or administrative data, nondisclosable CBI should
be referenced along with CBI. The General Counsel disagrees with this conclusion on the grounds
that nondisclosable CBI is just a subset of CBI. However, the regulation is not entirely clear. We
continue to believe that any doubts should be resolved in favor of complete clarity.

4. Government in the Sunshine Act                                                                    ...
The Government in the Sunshine Act requires agencies like the Commission to conduct open
meetings. Some meetings can be closed, and transcripts may be withheld from disclosure.
Transcripts of closed Commission meetings and hearings II have pink covers and the marking in
camera. Open meetings have either blue or yellow covers and the marking public. No one
reports any confusion or problems because of this system.




   10   See 61 Federal Register 37818,37820-21,37827-28 (July 22, 1996).

   II   See 19 CFR §201.13(m).

                                                      8
5. Equal Access to Justice Act

A Commission regulation" implementing the Equal Access to Justice Act requires those applying
for an award of fees and expenses to submit a statement of net worth. The statement is ordinarily
a public document. However, an applicant may submit a portion of the application marked as
confidential financial information. A motion to withhold that submission will be resolved by the
presiding officer.

Applications under the Equal Access to Justice Act have been rare. Nevertheless, the term
confidential financial information is troubling because of the use of the word confidential and
because of its similarity to other terms. A better and more descriptive term might be Non-public
Equal Access to Justice Filing.

B. Controlled Information Submitted to the Commission

The Commission has many statutory and regulatory provisions identifying types of controlled
information, and different terms are sometimes used to designate the same or similar information.
In this section, each type of information and each administrative marking are discussed.

1. CBI and BPI

Many substantive Commission functions involve the submission by a private company of
controlled information. Commission regulations clearly tell submitters how to mark business data,
and no problem with the rules was reported. For some functions (e.g., Title VII investigations),
BPI is the term used to describe privately submitted controlled information. For other functions
(e.g., 337 investigations), the term CBI is used exclusively." Under Commission regulations,
both CBI and BPI have the same definition. 14

Views within the agency about the terms CBI and BPI were mixed. Some officials were not even ..
aware of the use or meaning of BPI. Their offices exclusively used CBI. Some officials knew
the difference and relied upon the terms as a signal for identifying the type of investigation to
which a document related. Others thought that the use of two terms was unnecessarily confusing
and preferred consistent use of BPI. Still others preferred CBI because the word confidential
conveyed a clear signal about the need to protect the data.

In an ideal world, a single marking for all submitted controlled information would be preferable.
The use of different terms for marking data with the same meaning is unnecessary. Ideally, the


   12   19 CFR §212.11.

   IJ   One official pointed out that CBI can also mean Caribbean Basin Initiative.

   14   19 CFR §201.6(a).

                                                           9
term used would not overlap terminologically with any other marking in use. However, the
difference in terminology is not a source of sufficient confusion to threaten the Commission 's
record of protecting controlled information it receives from businesses. Everyone interviewed
knew the importance of protecting business data, regardless of the mark used.

In addition, changing the terminology would require the cooperation of Commission staff, revision
of regulations, amendments to the law, and support from the bar that practices before the
Commission. The effort needed to effect a change in information marking for business data would
exceed the benefit. Some officials worried that an attempt to change the terminology might be
misconstrued by practicing lawyers as a lessening of the Commission's commitment to protecting
business data.

 In the end, while a good case can be offered for using BPI as the universal marking for business
 controlled information, the case is not sufficiently strong to warrant moving forward. Some
.intermediate actions can lessen potential confusion and uncertainty.

First, when future changes in the Commission's legislation are considered, attention should be
given to the consistent use of terms. 15 Words casually selected by legislative drafters can have
consequences in the conduct of Commission business. The Congress should be encouraged to use
familiar terms in a manner consistent with current Commission practice.

Second, the differences in usage for BPI and CBI are not readily apparent, even to some veteran
Commission staff. We suggest that a description of the practice should be provided in appropriate
Commission directives, regulations, and other public documents.

Unless the word confidential can be eliminated from use in a business context, the potential always
exists for there to be confusion between national security information and CBI. Although we do
not recommend eliminating the term CBI, other methods may minimize confusion.
                                                                                                                  .   .
We suggest that the word confidential as an administrative marking not be used at the Commission
except for CBI and national security information. Rubber stamps with the single word
Confidential should be discarded.

CBI should continue to be marked Confidential Business Information. When national security
information is marked by Commission staff, we suggest that the marking CONFIDENTIAL




    15 The laws regulating Commission activities use a variety of terms to describe controlled information. The
statutes are not precisely drafted, and inconsistencies can be found. 19 USC § 1337(n) refers to confidential
information. Commission regulations generally call this data confidential business information. 19 USC
§ l673e(4)(A) refers to business proprietary information. 19 USC § 1677f(b) refers to both proprietary
information and business proprietary information. No apparent distinction between these terms is discernable
from the statute.

                                                        10
Classified National Security Information should be used." Classified information received from
other agencies is likely to be marked only as confidential, but other agencies' practices are beyond
the control of the Commission. If appropriate, incoming documents can be remarked as
.CONFIDENTIAL Classified National Security Information.

The general use of the word confidential or confidentiality should be discouraged because of the
lack of clear meaning. A more descriptive phrase is non-public. As publications and regulations
are revised in the routine course of events, the use of confidential can be discontinued.

2. Nondisclosable CBI

The Tariff Act of 1930, as amended, 17 refers to privileged information, classified information, and
specific information of a type for which there is a clear and compelling need to withholdfrom
disclosure. .Commission regulations refer to these three categories generically as nondisclosable
confidential business information. Some in the agency refer to this information with the informal
term superconfidential. There is no evidence that documents are marked with that term, however.

Requests from submitters for the designation of nondisclosable CBI are rare. The regulations
require that nondisclosable CBI be marked when submitted using triple brackets. IX We found no
reported problems with the marking of these documents.

3. Customer Names

The Tariff Act of 1930, as amended," also refers to customer names as a separate category of
proprietary information with a distinct set of disclosure rules. When Commission staff obtains
customer names, the names are treated and marked as BPI. No problems with current practice
were reported.

                                                                                                                        .   ..




    16 The Director of the Information Security Oversight Office raised no objection to the use of this term in place

of the single word confidential.

   17   19 USC §1677f(c)(I)(A).

   18   19 CFR §201.6(b)(3)(C).

   19   19 USC §1677f(c)(I)(A).

                                                         11
4. Nonnumerical Characterizations of Numerical CBI

Commission regulations defining CBI identify nonnumerical characterizations of numerical CBI
(e.g., discussions of trends) as a subcategory of CBI. The regulations imply that it will be harder
to obtain confidential treatment for this subcategory." We found little evidence that this type of
controlled information is separately marked or the source of confusion.

5. Declassified CBI/BPI

Section 210.20 of the Commission regulations refers to the declassification of confidential
information. Declassification is a term used in the EO on Security Classification to mean "the
authorized change in the status of information from classified information to unclassified
information." Its use in the context of CBI has mild potential to be confusing. A better term
might be Redesignated As Public.

The need to redesignate business data has arisen only occasionally in the past. The new sunset
requirements for Commission orders may increase the review of older documents and the need
to reconsider the public status of CBIIBPI.

The Commission has defined no procedure or marking policy for former CBIIBPI. The lack of
rules has not resulted in any problems, but it may in the future if older documents are more
commonly reviewed and redesignated as public. Accordingly, we suggest that a marking policy
be established to identify documents that were formerly CBIIBPI. A standard marking should be
applied to documents, along with the date of redesignation and the initials of the person who made
the decision. It may also be advisable to establish a policy about who is authorized to redesignate
CBIIBPI.

6. Information Relating to Allegations About the Commitment of a Prohibited Act
                                                                                                                      .
Commission regulations" for antidumping investigations define the terms privileged information
and proprietary information. These references break no new ground, although more consistent
use of BPI rather than simply proprietary information is advisable.

Section 207 .105(b) refers to a new subcategory of controlled information: information relating
to allegations concerning the commitment of a prohibited act. The regulation contains no special
marking requirement. This type of information is rare.



   20 Whether this is really the case is not clear. The standard for the subcategory is request ofthe submitter and
good cause shown. A request for confidential treatment is required for CBI of any type. Also, a requester must
presumably show good cause for all CBI. Thus, whether the standard is actually more stringent is not
immediately apparent from the regulation.

   21   19 CFR §207.3.

                                                         12
7. Administrative Protective Orders

Administrative Protective Orders (APO) are used routinely in some proceedings. The Office of
the Secretary's published guide to APOs describes the applicable procedures. 22 The APO process
uses the definitions and procedures found in Commission regulations to accomplish its purposes.
Some documents are marked Subject to Protective Order.

The Administrative Law Judges and other Commission staff universally said that the APO process
is well-understood, creates no problems, and accomplishes its purposes. One individual described
APOs as "working remarkably well."

8. Extremely Sensitive CBI

The Commission's Directive on Handling and Safeguarding CBF3 requires "extra precautions" for
Commission reports to the President and other reports containing extremely sensitive CBI. This
is identified as information that "could bring great harm or ruin to a company if disclosed in an
unauthorized way." The phrase extremely sensitive CBI does not appear elsewhere in Commission
rules or directives. No official was familiar with the term or the procedure described for
numbering copies and recording responsible individuals. The term is obsolete and should be
eliminated when the directive is revised.

9. Report Submitted in Confidence

ITC Directive 1355 also provides rules for the marking of Commission-generated documents
containing CBI. The use of confidential business information is required on the cover and first
page of documents. In addition, all documents must have at the top of each page either
Confidential or Report Submitted in Confidence. Problems with the use of confidential have
already been discussed. It appears to be more common for the pages of a document to be marked (
either Contains Confidential Business Information or Contains Business Proprietary Information. ..

The phrase Report Submitted in Confidence is used by some Commission staff. When the
Directive is revised, the phrase might be dropped in favor of something clearer and less
ambiguous such as Non-Public.

The CBI Directive also describes that portions of a page containing CBI should be marked with
brackets or with a double line in the margin. These markings are used without reported problems.



   22 U.S. International Trade Commission, An Introduction to Administrative Prorective.OrderPractice in
Antidumping and Countervailing Duty Investigations (April 1996) (Office of the Secretary) (Publication No.
2961). The publication is out of date as a result of the July 22, 1996, amendments to Commission regulations.
Footnote 4 warns readers of impending changes.

   23   USITC Directive No. 1355, §1O.c.(2) (July I, 1985).

                                                        13
C. Personnel

1. Statements of Employment and Financial Interests

A Commission regulation" provides that each statement of employment and financial interests
submitted by an employee shall be held in confidence. The regulation does not require that the
statement bear any particular administrative marking, and there is no reason to require a marking.
The sensitivity of the statements is well understood.

When the Ethics Officer provides written advice to Commission employees, the advice is labelled
Ethics - Confidential. The word confidential should be replaced with a more precise term
describing any restrictions on the use or disclosure of the advice. One possibility is to mark the
document as Ethics Advice and to include a description of any disclosure or use restrictions in the
document itself. The General Counsel suggested use of a marking that indicates the document's
nonpublic nature, such as "Access Restricted". We concur that a marking would be appropriate,
although we note that the phrase "Access Restricted" is not itself clearly descriptive.

2. Postemployment Conflict of Interest

The Commission has a procedure for addressing postemployment conflicts of interest, either
through the granting of exceptions or administrative disciplinary hearings. The Chairman has an
obligation to take "all necessary steps to protect the privacy of former employees" prior to
initiating a disciplinary hearing. Activities under this general authority are rare.

D. Internal Commission Markings

1. Sensitive Information

Section 2.c. of the Commission's Information Security Directive" defines the category of sensitive    .
information. This term comes from the Computer Security Act of 1987. We found few reported
uses of the marking sensitive information.




  24   19 CFR §200.735-121.

  25   USITC Directive 1345 (7/31/90).

                                                14
2. Limited Official Use

A note following section 2.a. of the Information Security Directive refers to the marking Limited
Official Use (LOU). The note states that information so marked shall be physically handled and
transmitted as if it were national security information with the classification Confidential.
Commission officials reported seeing LOU mostly on documents created by other agencies. The
marking has been replaced in some cases by sensitive but unclassified. Another marking
occasionally seen is for official use only. There is considerable uncertainty about the meaning and
significance of these terms.

3. Eyes Only/To be Opened by Addressee Only

These marking appear routinely on internal Commission documents and envelopes. Commission
officials reported a good deal of uncertainty about the precise meaning of the markings. It does
not appear that senior staff take the markings seriously. They exercise their own judgment about
sharing an eyes only document with other staff. The marking is reported to be used mostly on
documents containing budget, salary, personnel, and organization information.

4. Privileged

Most Commission officials knew that documents from the General Counsel's office were often
marked privileged. One other office also uses the term on legal advice to the Commission.

The General Counsel said that written advice about the meaning of privilege circulated many years
ago. She said that the term applies to a document that is subject to predecisional, attorney-client,
and/or attorney work-product privilege.

Most Commission officials said that they do not understand the significance of the term or how (
a privileged document may be used or shared. One individual said that the term "doesn't mean ..
anything." Others questioned about why so many documents were marked privileged or why
trivial documents were marked. Nearly everyone would welcome clear advice about the
significance of privilege.

5. Draft

Commission documents are routinely marked draft, but the practice varies from office to office
and from individual to individual.




                                                15
6. Other

Other markings are used occasionally, with practices varying from individual to individual and
from office to office. For example, one office had rubber stamps available for use that included:
File Copy, Unclassified, Priority, Air Mail, Corrected, Completed, and Urgent. Examples of
other markings reported to be in use in one or more offices are May Contain CBI, Subject to
Protective Order, Personnel Sensitive, APO Information, Confidential Attached, Public Inspection,
Personnel - Official, and Expedite.

Also, the marking Not for Public Inspection may be used in investigations into breaches of APO
obligations. It is used when non-public documents are shared with a party in order to distinguish
between the public and non-public versions of a document.

CONCLUSIONS

There is enough confusion and uncertainty about the use of internal administrative markings to
warrant the development of a standard policy. Most officials said that they would welcome a
formal policy. It is important, however, that a policy be constructive and not overly formalistic.
Any policy should seek to accomplish these objectives:

       • A policy should define the meaning of markings for internal use so that senders and
       recipients have the same understanding of what each term means and how a marked
       document may be used, disclosed, and discarded.

       • Internal administrative markings should not be mandatory. Staff should have discretion
       to decide whether to use a marking, and each office should be allowed to establish a local
       policy as long as it is consistent with the overall policy. Existing policies for the
       mandatory marking of national security information, CBI, and BPI should not be changed, (
                                                                                                  ..
       however.

       • No attempt should be made to define every possible marking. Draft is an example of a
       term that needs no explanation.

       • Markings that should be defined include: privileged, eyes only, to be opened by
       addressee only, and limited official use. There may be a need to defme new markings with
       clearer meanings, such as no external distribution.

       • The policy should make a distinction between markings placed on an envelope and
       markings placed on a document. An envelope might be marked to be opened by addressee
       only, but the document inside may require a different marking or none at all. If a
       document is addressed to one individual with copies to others, markings should be
       applicable to all recipients or not used.



                                               16
       • The policy should encourage authors of documents with complex use or disclosure rules
       to explain the rules in the document rather than to rely on a marking.


SUGGESTIONS

We suggest that the Director of Administration, in his capacity as Chairman of the Information
Security Committee:

       1. Amend the FOIA regulations to (a) permit contractors, bidders, and others who have
       an administrative relationship with the Commission to receive notice before release of their
       submission under the FOIA by marking the submission; and (b) include an appropriate
       reference to nondisclosable CBI.

       2. Issue an administrative announcement that the word confidential as an administrative
       marking should not be used except for CHI and national security information. All rubber
       stamps with the single word confidential should be replaced with a stamp CONFIDENTIAL
       Classified National Security Information. The markings Confidential Business Information
       and CBI should continue in use.

       3. Explain usage practices for CBI and BPI to Commission staff, and establish a policy to
       identify and mark documents that have lost their status as CBIIBPI.

       4. Revise directives, regulations, and policy documents to ensure that administrative
       marking terms are used with precision.

       5. Establish a policy on the internal use of administrative markings to clarify the meanings
       of terms and standardize practice.
                                                                                                      .
cc:    Commission
       Information Security Committee




                                               17
